No.
IN THE SUPREME COURT OF THE UNITED STATES
Timothy James Dummer,
Petitioner,
v.

Contractors’ State License Board et al.,
Respondents.
Proof of Service
I, Kari L. Dummer, do swear or declare that on this date, May 26, 2020, as
required by Supreme Court Rule 29, I have served the enclosed PETITION FOR
WRIT OF CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid:
The names and addresses of those served are as follows:
Michael Sapoznikow
Office of the Attorney General
PO Box 944255
Sacramento, Calif. 94244-2550

Clerk of Court of Appeal
Third District
914 Capital Mall, 4th Floor
Sacramento, Calif. 95814

Honorable Geoffrey A. Goodman
Judge of the Sup. Ct.
720 Ninth Street
Sacramento, Calif. 95814

Clerk of Cal. Supreme Court
350 McAllister St.
San Francisco, Calif. 94102

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 26th, 2020.

Kari Dummer

JUN - 3 2020
SUPREME?"OOURrfl RK

